            valuation


             eport

     SUMMARY OF DOD ACQUISITION PROGRAM AUDIT COVERAGE



Report No. D-2001-178                     September 10, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACAT                  Acquisition Category
GAO                   General Accounting Office
                       Office of the Inspector General, DoD
Report No. D-2001-178                                                 September 10, 2001
  (Project No. D2001OA-0074)

           Summary of DoD Acquisition Program Audit Coverage

                                Executive Summary

Introduction. This report will provide the DoD audit community with information to
support their planning efforts and provide management with information on the extent
of audit coverage of DoD acquisition programs. As of March 2001, DoD had
1,308 acquisition programs (exclusive of information technology programs). The
primary objective of Defense acquisition is to acquire quality products that satisfy user
needs with measurable improvements to mission accomplishment and operational
support, in a timely manner, and at a fair and reasonable price. An acquisition
program is a directed, funded effort designed to provide a new, improved, or
continuing material, weapon, or information system capability, or service, in response
to a validated need. DoD categorizes its acquisition programs based on the program's
level of review, decision authority, and applicable procedures. Acquisitions are
categorized as levels I, II, III, and IV. Eighty-five of the 1,308 programs are major
programs (Category I) and are estimated to cost about $782 billion. The remaining
1,223 smaller programs (Categories II, III, and IV) are estimated to cost about
$638 billion. In semiannual reports and in testimony to Congress, the Inspector
General, DoD, has reported Defense acquisition as one of the top 10 DoD management
challenges. Also, the General Accounting Office has identified DoD weapon system
acquisition as a high-risk area.

Objectives. The objective of the review was to summarize the audit coverage for
acquisition programs in category levels I through IV. We excluded information
technology systems unless they were combat related.

Results. Fifty-eight reports on acquisition programs in category levels I through IV
were issued from October 1, 1999, to March 31, 2001. Nineteen of the reports issued
were from the General Accounting Office; 22 of the reports were from the Office of the
Inspector General, DoD, of which 6 were classified; and 17 of the reports were from
Military Department audit agencies. The reports addressed at least 129 acquisition
programs in category levels I through IV out of the 1,308 programs. A review of the
52 unclassified reports disclosed the following systemic issues.

       •   Acquisition strategy (9 reports)

       •   Affordability/cost (10 reports)

       •   Establishment of program goals/exit criteria (5 reports)

       •   Managing hazardous materials in programs (5 reports)

       •   Open systems approach (1 report)

       •   Requirements (5 reports)
       •   Test and evaluation (9 reports)

       •   Total ownership/life-cycle cost (5 reports)

Additional problems were identified in the areas of analysis of alternatives; high-level
architecture; and the correct acquisition categorization. The six classified reports
addressed protection of programs against radio frequency weapons.

Independent internal audits should be used more extensively as an integral component
of management controls by the acquisition program. The limited number of audit
reports issued on weapon acquisition issues during the 18-month period covered by this
survey belies the often-heard assertion that acquisition programs are overaudited. It is
particularly telling that only 14 of the 906 ACAT I through III programs (2 percent)
were addressed by comprehensive audit reports that reflected evaluation of all
significant program aspects.

Points of Contact. For further information regarding audits of acquisition programs,
please contact the following individuals.

       •   Mr. John Meling, Inspector General, DoD, (703) 604-9091,
           jmeling@dodig.osd.mil;

       •   Mr. Joseph Mizzoni, Army Audit Agency, (703) 681-9593,
           joseph.mizzoni@aaa.army.mil;

       •   Mr. Randy Exley, Naval Audit Service, (202) 433-6260,
           exley.randall@hq.navy.mil; and

       •   Mr. Dan Clark, Air Force Audit Agency, (513) 257-7435,
           dan.clark@wpafb.af.mil.




                                             ii
Table of Contents

Executive Summary                                        i


Introduction
     Background                                          1
     Objectives                                          3

Findings
     Acquisition Program Audit Coverage                  4

Appendixes
     A.    Evaluation Process                           12
     B.    Summary of Prior Coverage                    13
     C.    Elements of a Program Management Review      30
     D.    Acquisition Category I Programs Reviewed     32
     E.    Acquisition Category II Programs Reviewed    36
     F.    Acquisition Category III Programs Reviewed   38
     G.    Acquisition Category IV Programs Reviewed    40
     H.    Matrix of Systemic Weaknesses                42
     I.    Report Distribution                          44
Background
    DoD Policies and Procedures. DoD Directive 5000.1, “The Defense
    Acquisition System,” October 23, 2000, and DoD Instruction 5000.2,
    “Operation of the Defense Acquisition System, ” Change 1, January 4, 2001,
    establish the policies and procedures for managing Defense acquisitions. The
    primary objective of Defense acquisition is to acquire quality products that
    satisfy user needs with measurable improvements to mission accomplishment
    and operational support, in a timely manner, and at a fair and reasonable price.
    The DoD should use performance and results-based management to ensure an
    efficient and effective acquisition system.

    Successful acquisition programs fundamentally depend on competent people,
    rational priorities, validated requirements, performance measurement, and
    clearly defined responsibilities. An acquisition program is a directed, funded
    effort designed to provide a new, improved, or continuing material, weapon, or
    information system capability, or service, in response to a validated need.

    Acquisition Category. An Acquisition Category (ACAT) is a designation
    assigned to an acquisition program based on the programs’ level of review,
    decision authority, and applicable procedures. Acquisition programs are
    categorized in levels I, II, III, and IV. The 85 major programs (ACAT I) are
    estimated to cost about $782 billion while the 1,223 smaller programs
    (ACAT II, III, and IV) were estimated to cost about $638 billion.

              ACAT I. Programs designated as ACAT I are those that are Major
    Defense Acquisition Programs. A program is considered to be a Major Defense
    Acquisition Program if it is estimated to require an eventual total expenditure
    for research, development, test, and evaluation of more than $365 million in
    FY 2000 constant dollars or for procurement of more than $2.19 billion in
    FY 2000 constant dollars. There are two subcategories for ACAT I programs:
    ACAT ID and ACAT IC. The milestone decision authority for ACAT ID
    programs is the Under Secretary of Defense for Acquisition, Technology, and
    Logistics and for ACAT IC programs, the Component acquisition executive.
    The milestone decision authority is the individual designated to approve entry of
    an acquisition program into the next phase of the acquisition process. As of
    December 2000, there were 85 ACAT I programs.

             ACAT II. Programs designated as ACAT II are those that do not
    meet the criteria for an ACAT I program but do qualify as major systems. A
    system is considered major if it is estimated to require an eventual total
    expenditure for research, development, test, and evaluation of more than
    $140 million in FY 2000 constant dollars or for procurement of more than
    $660 million in FY 2000 dollars. The Component acquisition executive is the
    milestone decision authority for ACAT II programs. As of January 2001, there
    were 132 ACAT II programs.




                                        1
              ACAT III. ACAT III programs are defined as those acquisition
    programs that do not meet the criteria for an ACAT I or II. The Component
    acquisition executive designates the milestone decision authority. As of
    January 2001, there were 689 ACAT III programs.

              ACAT IV. ACAT IV programs represent all other nonmajor
    acquisition programs. The ACAT IV designation was removed from the
    acquisition lexicon; however, the Military Departments were given the option to
    retain the ACAT IV designation for lower-level programs. The Army, Navy,
    and Marine Corps still use the ACAT IV designation. The Army uses
    ACAT IV as the designation for those programs not designated ACAT I, II, III
    to differentiate between these nonmajor programs managed by a systems
    manager within a material command rather than a program, project, product
    manager. The Navy and Marine Corps define an ACAT IV as all other
    acquisition programs that do not meet the criteria of an ACAT I, II, and III.
    Further, Navy ACAT IV-T programs require operational testing and evaluation
    while ACAT IV-M programs are monitored by test authorities but do not
    require operational testing and evaluation. As of January 2001, there were
    402 ACAT IV programs.

Management Challenges
    From October 1, 1999, to March 31, 2001, in semiannual reports and in
    testimony to Congress, the Inspector General, DoD, has reported Defense
    acquisition as one of the top 10 DoD management challenges and questioned the
    adequacy of audit coverage of related issues. Also, the General Accounting
    Office (GAO) has identified DoD weapon system acquisition as a high-risk area.
    On March 15, 2001, the Deputy Inspector General testified before the
    Subcommittee on National Security, Veterans Affairs, and International
    Relations, the Committee on Government Reform, U. S. House of
    Representatives, on the top Defense management challenges. The Deputy
    Inspector General stated that the DoD is working toward the goal of becoming a
    world-class buyer of best value goods and services from a globally competitive
    industrial base. To meet that goal, the DoD has initiated an unprecedented
    number of major improvement efforts, including at least 40 significant
    acquisition reform initiatives. Despite some success and continued promises
    from ongoing reforms, the business of creating and sustaining the world's most
    powerful military force remains expensive and vulnerable to fraud, waste, and
    mismanagement. An inherent challenge throughout the DoD reform effort is
    ensuring that critically needed controls remain in place and that new processes
    have proper oversight and feedback.




                                       2
Objectives
     The objective of the review was to summarize audit coverage for acquisition
     programs in category levels I through IV. We excluded information technology
     systems unless they were combat related. For a summary of issues related to
     information technology acquisition see Inspector General, DoD, Report
     No. D-2000-162, “Summary of Audits of Information Technology,”
     July 13, 2000. That report is located on our Internet website
     (www.dodig.osd.mil/audit/reports). See Appendix A for the discussion of the
     scope and methodology. Appendix B contains a summary of the issues
     addressed in each report.




                                       3
            Acquisition Program Audit Coverage
            Fifty-eight reports on acquisition programs in category levels I
            through IV were issued from October 1, 1999, to March 31, 2001.
            Nineteen of the reports issued were from the General Accounting Office
            (GAO); 22 of the reports were from the Office of the Inspector General,
            DoD, of which 6 were classified; and 17 of the reports were from the
            Military Department audit agencies. The reports addressed at least 129
            ACAT programs, of which 51 were ACAT I, 20 were ACAT II,
            24 were ACAT III, and 34 were ACAT IV. A review of the unclassified
            reports (see Appendix B) disclosed findings on the following systemic
            issues.

               •   Acquisition strategy (9 reports)

               •   Affordability/cost (10 reports)

               •   Establishment of program goals/exit criteria (5 reports)

               •   Managing hazardous materials in programs (5 reports)

               •   Open systems approach (1 report)

               •   Requirements (5 reports)

               •   Test and evaluation (9 reports)

               •   Total ownership/life-cycle cost (5 reports).

            In addition to the systemic issues, problems were also identified in the
            areas of analysis of alternatives; high-level architecture; and the correct
            acquisition categorization. The six classified reports addressed the
            protection of programs against radio frequency weapons.

Acquisition Audit Planning
     In 1993, the Office of Inspector General and the Military Department audit
     agencies established a Joint Planning Group for acquisition program oversight to
     coordinate research on issues and discuss the status of previous, ongoing, and
     planned oversight coverage. Membership in the joint audit planning group
     includes representatives of the Inspector General, DoD, and the Military
     Department audit agencies. The purpose of the group is to maximize the
     exchange of information to prevent repetitive requests to management for data
     and duplicative projects.

     The Military Department audit agencies use various methods to accomplish audit
     planning. The Army Audit Agency uses a combination of risk assessments,
     customer surveys, and continuous liaisons with customers to identify audit
     requirements. For the Navy, an audit planning group assists the Naval Audit
                                          4
    Service in developing an audit plan that closely aligns with the overall corporate
    goals and strategies of the Navy. The Air Force Audit Agency uses audit topic
    research and visits to their customers to identify audit requirements.

    In the Office of the Inspector General, DoD, the issue area planning staff meet
    throughout the year with senior Office of Secretary of Defense, Military
    Department, and Defense agency management officials to encourage and
    facilitate their active involvement in the planning process. The Office of
    Inspector General is promptly alerted to DoD management requests for review
    coverage or management initiatives that could significantly affect ongoing or
    planned Inspector General, DoD, reviews. The planning staff develops and
    coordinates proposed annual audit and evaluation topics for review in the
    acquisition issue area. The planning is accomplished, to the maximum extent
    practical, jointly with the applicable DoD-wide joint planning group.

ACAT I Through IV Acquisition Program Audit Coverage
    Between October 1, 1999, and March 31, 2001, the GAO; the Inspector
    General, DoD; and the Military Department audit agencies reviewed at least 129
    of the 1,308 ACAT I, II, III and IV programs. We defined ACAT I through IV
    acquisition as areas of the acquisition program process up to and including
    fielding and initial provisioning.

    We used the 44 elements from a program management elements audit guide
    (see Appendix C) to identify the amount of coverage each acquisition program
    received, and we defined full coverage as reviewing multiple elements of an
    acquisition program. If a program received multiple audits that reviewed
    different elements that in total could be considered a full review, we considered
    that as full coverage. We also considered the phase the acquisition program was
    in and the elements reviewed. We defined partial coverage as reviewing only
    one, two, or three elements of a program.

           ACAT I. Of the 85 ACAT I programs, 51 had been reviewed. Six
           programs had full reviews and 45 programs had partial reviews. The six
           programs that had full reviews were the:

                   •   Airborne Laser;

                   •   C-17A Advanced Cargo Aircraft;

                   •   F-22 aircraft;

                   •   Joint Strike Fighter;

                   •   Minuteman III Propulsion Replacement Program; and

                   •   V-22 Osprey Joint Advanced Tactical Aircraft.

           For specific ACAT I programs reviewed and the amount of coverage
           each ACAT I program received, see Appendix D.

                                         5
            ACAT II. Of the 132 ACAT II programs, 20 were reviewed during the
            evaluation time period. Two programs had full reviews and 18 programs
            had partial reviews. The two full reviews were for the Battlefield
            Combat Identification System and the Land Warrior Program. For
            specific ACAT II programs reviewed and the amount of coverage for
            each ACAT II program, see Appendix E.

            ACAT III. Of the 689 ACAT III programs, 24 had been reviewed. Six
            of the programs had full reviews and 18 programs had partial reviews.
            The six programs that had full reviews were the:

                   •   Advanced Tank Armament System;

                   •   Armored Medical Evacuation Vehicle;
                   •   Combat Survivor Evader Locator;

                   •   Joint Biological Point Detection System;

                   •   High Mobility Trailers; and

                   •   Predator Short Range Assault Weapon.

            For specific ACAT III programs reviewed and the amount of coverage
            for each ACAT III program, see Appendix F.

            ACAT IV. Of the 402 ACAT IV programs, 34 had been reviewed
            during the time period. For specific ACAT IV programs reviewed and
            the amount of coverage for each ACAT IV program, see Appendix G.

            Pre-Major Defense Acquisition Program. Two of the 20 pre-Major
            Defense Acquisition Programs had been reviewed during the time
            period. A pre-Major Defense Acquisition Program is an effort that may
            eventually become a Major Defense Acquisition Program. The systems
            reviewed were the Future Scout and Cavalry System and the Global
            Hawk.

Systemic Issues
     We defined systemic problems as issues that were reported in four or more
     reports. However, if one report reviewed multiple acquisition programs and the
     majority of programs had problems identified, we included that as a systemic
     issue. For a matrix of acquisition program systemic issues, see Appendix H.

     Acquisition Strategy. Nine reports noted problems with the acquisition
     strategy (see Appendix B, reports 1, 8, 15, 16, 19, 21, 37, 39, and 50).
     Acquisition strategy serves as the evolving roadmap for program execution from
     program initiation through post-production support. Examples of issues
     identified include the following.

                                        6
       •   The Joint Strike Fighter acquisition strategy will not ensure that the
           program will enter the engineering and manufacturing phase
           development with low technical risk (see Appendix B, report 37).

       •   The acquisition strategy for High Mobility Trailers underestimated
           the risks of purchasing the system (see Appendix B, report 50).

       •   A viable acquisition strategy to acquire the Battlefield Combat
           Identification System at the completion of the engineering and
           manufacturing development phase did not exist. The lack of strategy
           occurred because the milestone decision authority allowed the system
           to enter low-rate initial production without determining whether the
           program was affordable and without ensuring that the Army had fully
           funded the program (see Appendix B, report 1).
       •   Opportunities existed to improve key program documents to better
           address the overall evolutionary acquisition strategy for the Common
           Low Observables Verification System (see Appendix B, report 19).

Affordability/Cost. Ten reports reported problems with affordability/cost of
acquisition programs (see Appendix B, reports 5, 13, 14, 26, 29, 31, 35, 40,
43, and 50). Affordability/cost is the ongoing assessment of a program to
ensure that it is being executed within DoD planning and funding guidelines, has
sufficient resources identified and approved in the Future Years Defense
Program, and is based on accurate cost and manpower data. Examples of these
issues included the following.

       •   The Antiarmor Missile System increased from $2.1 billion to
           $3.1 billion because of the schedule increases and quantity reductions
           as well as poor estimates and technical difficulties (see Appendix B,
           report 14).

       •   Estimated costs of the Patriot program increased from about $3.9
           billion in 1994 to about $6.9 billion in March 2000. A major reason
           for the cost increase was that the original cost estimate did not
           recognize the level of effort and difficulty associated with developing
           and producing a hit-to-kill missile compared with previous missiles
           (see Appendix B, report 31).

       •   The F/A-18E/F deficiencies identified by the operational testers will
           be costly to correct and raise questions about the appropriateness of
           entering into a multiyear procurement contract for full-rate
           production (see Appendix B, report 35).

Program Goals/Exit Criteria. Five reports reported problems with program
goals/exit criteria (See Appendix B, reports 5, 7, 12, 25, and 47). Every
acquisition program must establish program goals and objectives for the
minimum number of cost, schedule, and performance parameters that describe
the program over its life-cycle. Examples included the following.

       •   For seven of the nine programs reviewed, improvements were
           needed in the establishment of exit criteria at milestone decision
                                     7
           points and in reporting the status toward attaining exit criteria
           requirements to milestone decision authorities (see Appendix B,
           report 12).

       •   Exit criteria needed to be established for the Predator Short-Range
           Assault Weapon (see Appendix B, report 25).

Hazardous Materials. Five reports noted problems with hazardous material
management (see Appendix B, reports 38, 42, 44, 51, and 52). The hazardous
material management strategy and requisite hazardous material analysis ensure
that the program investigates methods for eliminating and reducing the use of
hazardous materials over the systems life-cycle. Examples of audit issues
included the following.
       •   Program offices for nine programs reviewed generally planned and
           provided for the reduction and elimination of hazardous material in
           their programs. However, improvement was needed in developing a
           programmatic environmental, safety, and health evaluation;
           estimating the environmental costs for demilitarization, disposal, and
           cleanup of the system; processing an analysis of the potential
           environmental consequences of developing and deploying the system;
           and establishing a hazardous material reutilization and inventory
           management program (see Appendix B, report 38).

       •   Environmental management integration program personnel took
           proactive measures to identify and eliminate hazardous materials
           from the F-22 acquisition program design, but they could more
           timely update the programmatic environmental, safety, and health
           evaluation plan and accelerate the production environmental
           assessment (see Appendix B, report 42).

Open Systems Approach. The open systems approach enables rapid
acquisition with demonstrated technology, evolutionary and conventional
development, interoperability, life-cycle supportability, and incremental system
upgradability without major redesign. The audit of “Use of Open Systems
Approach for Weapon Systems,” (See Appendix B, report 34) stated that a
number of systems proceeded into the next phase without meeting requirements
to do so. Specifically, 14 of 17 systems were approved to enter the next stage
without clearly defined open system design objectives or strategy for achieving
the objectives. Also, DoD guidance on open systems did not require program
managers to assess the impact of a given level of design openness on the
long-term viability and affordability of systems.

Requirements. Five reports noted problems with requirements (See
Appendix B, reports 6, 10, 14, 15, and 31). The purpose of requirements is to
document deficiencies in current capabilities and to develop a mission need
statement that new capabilities will provide. Examples of problems identified
included the following.



                                    8
       •   The Integrated System Control needed to have its requirements
           updated for versions 1 and 2. In addition, the system should meet
           the user needs of the first digitized division. However, the material
           developer faces tremendous challenges and risk of not meeting user
           needs of the future digitized battlefield (see Appendix B, report 10).

       •   User requirements for “One Semi-Automated Forces” were
           adequately identified, but the requirements needed to be clarified (see
           Appendix B, report 15).

Test and Evaluation. Nine reports noted problems with testing and evaluation
(See Appendix B, reports 1, 3, 5, 9, 17, 18, 27, 30, and 33). Test and
evaluation reveals information about the program and measures the performance
of the system against established requirements. Examples of problems identified
included the following.
       •   There was lack of funding to test 19 operational requirements for the
           Battlefield Combat Identification System and no plan to operationally
           test a production prototype of the system in cold, fog, snow, or rain
           (see Appendix B, report 1).

       •   There was significantly reduced mission reliability from the level
           recommended so that the On-Board Jammers for the Integrated
           Defensive Electronic Countermeasures could pass the operational test
           and evaluation and be installed on the F/A-18 E/F aircraft (see
           Appendix B, report 3).

       •   The V-22 will not successfully complete the key operational test and
           evaluation objectives required to be accomplished before a
           Milestone III full-rate production decision. That occurred because
           22 deficiencies in major operational effectiveness and suitability
           requirements had not been corrected and would not be tested in time
           for the Milestone III review (see Appendix B, report 27).

Total Ownership/Life-Cycle Cost. Five of the acquisition reports noted
problems with total ownership/life-cycle cost (See Appendix B, reports 4, 20,
24, 42, and 44). DoD should consider the total ownership cost of each
acquisition program. Historically, a large amount of attention was paid to the
initial cost of acquisition programs. However, the majority of total program
costs are in the sustainment area. Examples of issues identified included the
following.

       •   The system program office did not plan to develop a comprehensive
           total ownership life-cycle cost estimate for the Minuteman III
           Propulsion Replacement Program (see Appendix B, report 44).

       •   Program offices provided limited or no documentation showing how
           cost baselines and cost reduction initiatives were developed. Also,
           cost reduction initiatives did not relate to program cost drivers in
           some cases and program offices did not identify specific cost drivers
           in some cases (see Appendix B, report 4).

                                    9
       •   Disposal requirements program personnel could augment current
           life-cycle planning by including system storage and disposal
           requirements in F-22 program planning documentation and the draft
           life-cycle cost estimate (see Appendix B, report 42).

Other Issues. Although not systemic, there were several other recurring
problems noted in the acquisition reports.

Three reports (see Appendix B, reports 7, 25, and 49) identified problems with
a lack of analysis of alternatives. Alternative analysis broadly examines
multiple elements of program alternatives including technical risk and maturity
and cost.

       •   An exploration of potentially more affordable alternatives to the
           Predator Short-Range Assault Weapon had not been done despite
           significant cost growth and schedule breaches (see Appendix B,
           report 25).

       •   A decision needed to be made on which gunnery device would be the
           primary training device for the National Guard. The upgraded
           Abrams Full Crew Trainer should provide training effectiveness that
           is the same as or superior to that provided by the upgraded Conduct
           of Fire Trainer (see Appendix B, report 49).

       •   The DoD had not adequately analyzed or identified cost effective
           alternatives to Space Based Infrared System-low that could satisfy
           critical missile defense requirements (see Appendix B, report 7).

The Army Audit Agency reported (See Appendix B, report 28) that actions were
inadequate that were taken by organizations to ensure all 24 simulations
reviewed will be compliant with high-level architecture. Ten of the 24
simulations were not adequately progressing.

Other reports noted problems in the following areas.

       •   The C-17 flexible sustainment program (see Appendix B, report 22);

       •   The acquisition categorizations for the Joint Biological Point
           Detection System and the Land Warrior Program (see Appendix B,
           reports 23 and 47);

       •   The lack of independent logistics assessments (see Appendix B,
           report 32);

       •   The improvement of contract performance visibility for the Sensor
           Fuzed Weapon (see Appendix B, report 41);

       •   The software development plan for the F-22 (see Appendix B,
           report 42);


                                   10
           •   Evolved Expendable Launch Vehicle Program use of other
               transactions agreements (see Appendix B, report 46); and

           •   The streamlining of internal management processes (see Appendix B,
               report 48).

    Classified Reports. During October 1, 1999, to March 31, 2001, the Inspector
    General, DoD, issued six classified reports relating to the protection of
    programs against radio frequency weapons. For titles of the classified reports,
    see Appendix B.

Conclusion
    As illustrated in the 58 reports relating to DoD ACAT I through IV acquisition
    programs issued from October 1, 1999, to March 31, 2001, DoD management
    of ACAT I through IV acquisition programs remains a complex challenge facing
    DoD managers. Because of the dollar magnitude of the programs and the
    impact on national security, the management of the acquisition programs
    remains an area needing continued emphasis, oversight, and improvement by
    DoD managers.

    Independent internal audits should be used more extensively as an integral
    component of management controls by the acquisition program. The limited
    number of audit reports issued on weapon acquisition issues during the
    18-month period covered by this report belies the often-heard assertion that
    acquisition programs are overaudited. It is particularly telling that only 14 of
    the 906 ACAT I through III programs (2 percent) were addressed by
    comprehensive audit reports that reflected evaluation of all significant program
    aspects.




                                        11
Appendix A. Evaluation Process
   Scope and Methodology. This report summarizes DoD weapon system
   acquisition program audit coverage from October 1, 1999, to March 31, 2001.
   During the time period the GAO issued 19 audit reports; the Inspector General,
   DoD, issued 22 audit reports of which 6 were classified reports; and the
   Military Department audit agencies issued 17 audit reports. The reports were
   analyzed to determine systemic weaknesses and the amount of coverage that
   each acquisition program received. To determine whether a report was an
   acquisition program report, we read each report and asked the three following
   questions:

          •   Did the report focus on ACAT I through IV program acquisition?

          •   Did the report focus on acquisition issues or focus on systemic
              logistics, contracting, finance and accounting, or readiness issues?

          •   Did the report identify the ACAT I through IV program under
              review?

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform the evaluation.

   Dates and Standards. We conducted this evaluation from February through
   August 2001 in accordance with standards issued and implemented by the
   Inspector General, DoD.

   Contacts. We visited or contacted individuals and organizations within DoD.
   Further details are available upon request.




                                       12
Appendix B. Summary of Prior Coverage
     During the period of October 1, 1999, to March 31, 2001, the GAO issued 19
     audit reports; the Inspector General, DoD, issued 22 audit reports of which 6
     were classified; and the Military Department audit agencies released 17 audit
     reports on the topic of ACAT I through IV acquisition. Issues from the
     52 unclassified reports are illustrated in a matrix in Appendix H and titles of the
     classified reports are listed in Appendix B. These 52 unclassified reports are
     summarized below and are listed in order with the most recent issuance first.

Unclassified Reports
     1. Inspector General, DoD, Report No. D-2001-093, “Acquisition of the
     Battlefield Combat Identification System,” March 30, 2001. The Army did
     not have a viable acquisition strategy to acquire the Battlefield Combat
     Identification System at the completion of the engineering and manufacturing
     development phase of the acquisition process. In addition, the Battlefield
     Combat Identification System did not have an up-to-date and comprehensive test
     and evaluation master plan. Further, the Army lacked funding to test 19
     operational requirements and did not plan to operationally test a production
     prototype of the system in cold, fog, snow, or rain. Without an updated test and
     evaluation master plan that accurately showed user requirements, testers cannot
     fully evaluate the effectiveness of the system in reducing fratricide. Also, the
     milestone decision authority did not have sufficient operational test data to
     assess the readiness of the system to enter full-rate production. At the time of
     this summary report, agreement on issues and needed corrective actions were
     underway.

     2. Inspector General, DoD, Report No. D-2001-089, “Management Issues
     at the Joint Simulation System Program Office,” March 30, 2001. In
     coordination with the Office of the General Counsel, DoD, the audit reviewed
     transfers of $2.1 million in funds and did not identify improprieties. The audit
     found no indication that the Joint Simulation System Program Office made
     significant errors in processing obligations. Also, deliverables were adequately
     recorded. The audit also did not identify any conflicts of interest or
     improprieties in the hiring practices of the office for contractor or direct-hire
     personnel. Further, the Joint Simulation System Program Office appropriately
     reimbursed moving expenses in accordance with the Joint Travel Regulation.
     Because the concerns raised by the Joint Staff did not warrant further
     management attention, the report contained no recommendations.

     3. Inspector General, DoD, Report No. D-2001-086, “On-Board Jammers
     for the Integrated Defensive Electronic Countermeasures,” March 20, 2001.
     The Navy significantly reduced mission reliability from the level recommended
     in the cost and operational effectiveness analysis. The Navy reduced the
     requirements so that the AN/ALQ-165 Airborne Self-Protection Jammer could
     pass the operational test and evaluation and be installed on the F/A-18 E/F
     aircraft. Furthermore, the AN/ALQ-214, which would be on the on-board
     jammer for the Blocks II and III of the Integrated Defensive Electronic

                                         13
Countermeasures Suite, would be tested against the same operationally
suitability requirements. By reducing the mission reliability rate, the Navy’s
logistical support requirement may have to be significantly increased to
accomplish a 90 percent operational availability rate for the system. At the
reduced rate, unscheduled maintenance may be required up to 2.5 times more
often than if the system met the mission reliability rate recommended by the cost
and operational effectiveness analysis. At the time of this summary report,
agreement on issues and needed corrective actions were underway.

4. Naval Audit Service Report No. N2001-0018, “Total Ownership
Cost-Reduction Plans,” March 20, 2001. Navy Systems Command Program
offices provided limited or no documentation showing how cost baselines and
cost reduction initiatives were developed. Available documentation supported
only a small portion of the assumptions and conclusions used to create the
baselines. Various costs were excluded from the cost baselines, and metrics
were vague or did not measure desired outcomes. In addition, in some cases,
cost reduction initiatives did not relate to program cost drivers, and program
offices did not identify specific cost drivers. Navy management recognized that
more action was needed regarding the Total Ownership Cost-Reduction Plans
initiative and agreed to issue revised policy guidance.

5. GAO Report No. GAO-01-310, “Tactical Aircraft: F-22 Development
and Testing Delays Indicate Need for Limit on Low-Rate Production,”
March 15, 2001. The F-22 program did not meet its schedule goals for 2000,
the cost to complete development as now planned may exceed the
congressionally established limitation, and the program was not far enough
along in flight-testing to confirm DoD estimates of program performance. DoD
agreed that F-22 program adjustments are needed to ensure that adequate testing
was completed prior to entry into Operational Test and Evaluation.

6. GAO Report No. GAO-01-288, “Best Practices: Better Matching of
Needs and Resources Will Lead to Better Weapon System Outcomes,”
March 8, 2001. A match between developer resources and customer
expectations was eventually met on just about every product or program
development. A key distinction between successful products and problem
products was when the match is achieved. When customer needs and developer
resources were matched before a product development started, the more likely
the development was to meet cost and schedule objectives. When that match
took place later after the product development was underway, problems
occurred that took significantly higher investments of time and money. DoD
management agreed with the report and agreed with the need to level
requirements, resources, and time-lines. The recently revised 5000 process
assisted in that process.

7. GAO Report No. GAO-01-6, “Defense Acquisitions: Space-Based
Infrared System-low at Risk of Missing Initial Deployment Date,”
February 28, 2001. The Air Force’s acquisition schedule at the time of the
audit was at high risk of not delivering the system on time, at cost, or with
expected performance. In addition, the program had high technical risks
because some critical satellite technologies had been judged to be immature for

                                   14
the current stage of the program. Also, the DoD acquisition policy and
procedures required that assessments be made of the cost and mission
effectiveness of space systems to alternative terrestrial land, sea, and air
systems. Despite the requirement, DoD had not adequately analyzed or
identified cost-effective alternatives to the Space Based Infrared System-low that
could satisfy critical missile defense requirements. DoD stated that it was
taking action that will address the recommendations.

8. Inspector General, DoD, Report No. D-2001-066, “Acquisition of the
Advanced Tank Armament System,” February 28, 2001. The Army did not
establish a viable acquisition strategy to develop and acquire the system beyond
the program definition and risk reduction phase. Instead, the Milestone
Decision Authority considered the Advanced Tank Armament System to be a
program element for funding technology demonstrations but did not
appropriately manage and fund the system as a technology demonstration. As a
result, the Army obligated about $85.8 million in research, development, test,
and evaluation funds through FY 2000 and planned to obligate another $62.9
million from FY 2001 through FY 2007 for a program that the Army is not
intending to fund for the engineering and manufacturing development phase and
the production phase. On September 30, 2000, the Army reduced the FY 2001
through FY 2007 funding from about $42 million to about $20.9 million for the
Advanced Tank Armament System. Beginning in FY 2003, the Army will
realign all funding for the Advanced Tank Armament System to other programs.

9. GAO Report No. GAO-01-369R, “Defense Acquisitions: Readiness of
the Marine Corps’ V-22 Aircraft for Full-Rate Production,” February 20,
2001. The report discussed the V-22 program readiness for full-rate production.
GAO concluded that the V-22 program was not ready for full-rate production.
The conclusion was based on two factors. First, the GAO “best practices”
work identified practices used by successful commercial and Defense programs
to develop and produce quality products in significantly less time and at lower
costs. Second, GAO analyzed DoD assessments and data on the V-22 program.
The report made no recommendations. However, DoD management stated that
V-22 program decisions were deferred to permit consideration of the results of
the V-22 Blue Ribbon Panel and of the Inspector General, DoD, investigation
into fleet maintenance.

10. Army Audit Agency Report No. AA01-128, “Integrated System
Control,” January 29, 2001. Configurations of the Integrated System Control
program had valid requirements. However, the Army Training and Doctrine
Command needed to update the requirements for Versions 1 and 2 and the
Tactical Internet Manager. The Integrated System Control program should have
met user needs of the first digitized division. However, because of resource
constraints, the material developer faced tremendous challenges and risk in not
meeting user needs and fielding schedules of the future digitized battlefield.
Also, the Integrated System Control had an adequate strategy for keeping pace
through spiral development with modernization efforts of the related systems.
By documenting and updating its strategy in operational requirement documents,
the Army would make sure it kept pace with modernization efforts. The Army
agreed with the recommendations and agreed to take corrective action by
providing an updated Operational Requirements Documents.

                                    15
11. Inspector General, DoD, Report No. D-2001-036, “Acquisition of the
Combat Survivor Evader Locator,” January 25, 2001. The Program
Management Office had planned for and managed design and development of
the system despite funding shortfalls. The Air Force had been funding the
system through internal Air Force reprogramming below the threshold that
required congressional notification. The report expressed concerns regarding
how the Program Management Office would fund additional interoperability and
security requirements along with associated technological challenges. In
addition, the auditors had a concern that the Air Force plan to incrementally
purchase its hand-held radio requirements would not take advantage of economic
order quantities and would not satisfy a critical mission need in a reasonable
timeframe. The auditors concerns were resolved when the Director, Program
Analysis and Evaluation, issued a Program Decision Memorandum that
reprogrammed additional funds.
12. Inspector General, DoD, Report No. D-2001-032, “Use of Exit Criteria
for Major Defense Systems,” January 10, 2001. Improvements were needed
in establishing exit criteria at milestone decision points and in reporting the
status toward attaining exit criteria requirements to milestone decision
authorities. For seven of the nine programs reviewed, milestone decision
authorities did not ensure that program managers proposed program-specific exit
criteria for use at future milestone decision points. In addition, program
managers for three of the five major Defense acquisition programs reviewed did
not report their status toward attaining exit criteria requirements in the quarterly
Defense Acquisition Executive Summary. DoD generally concurred with the
report recommendations and agreed to enforce policy that requires the use of
exit criteria for major Defense acquisition programs.

13. GAO Report No. GAO-01-228R, “Defense Acquisitions: Status of the
KE-ASAT Program,” December 5, 2000. This review focused on the DoD
Kinetic Energy Anti-Satellite program. GAO found that the program manager
and key staff had been reassigned and the program itself had been transferred to
a new directorate. Problem areas included funding, limited management and
oversight, and poor recordkeeping. In addition, the GAO stated that several
internal and financial control breakdowns needed to be further examined and
corrected. The Army stated that corrective action would be taken.

14. GAO Report No. GAO-01-74, “Defense Acquisitions: Need to Confirm
Requirements for $4.1 Billion Antiarmor Missile System,” December 5,
2000. From 1995 through 1999, the program’s production schedule was
increased from 9 to 14 years and quantities were reduced from 19,902 to 15,707
submunitions and from 1,806 to 1,206 missiles. During the period, total
program costs increased from $2.1 billion to $3.1 billion, a 48 percent increase,
as a result of schedule increases and quantity reductions as well as poor
estimates and technical difficulties. Reductions in submunition and missile
procurement quantities combined with increased total program cost resulted in
unit procurement cost increases of 80 percent for the submunition and
72 percent for the missile. Further, the DoD 1999 estimates showed that the
program would cost almost $2.6 million to procure 1 missile loaded with
13 submunitions, $1.1 million more than the 1995 estimate of $1.5 million.

                                     16
DoD stated that the submunition and missile program requirements and
affordability have been confirmed and will be reviewed again at the full-rate
production decision scheduled for FY 2002.

15. Army Audit Agency Report No. AA01-087, “One Semi-Automated
Forces,” December 1, 2000. The Army followed proper procedures for
obtaining approval for the One Semi-Automated Forces Mission Need
Statement. In addition, the Army adequately identified user requirements.
However, the requirements needed to be clarified. The acquisition strategy was
cost-effective, however, the Army needed to improve the One Semi-Automated
Testbed program and include lessons learned in the objective system
development. In addition, certain requirements need periodic reviews to
determine whether they should continue to be part of the acquisition strategy or
should instead be satisfied through some other means. The Army agreed with
the recommendations and agreed to expand testing.
16. Inspector General, DoD, Report No. D-2001-012, “Acquisition of the
Armored Medical Evacuation Vehicle,” November 22, 2000. The Army did
not have a viable acquisition strategy to acquire the Armored Medical
Evacuation Vehicle, an ACAT III program, at the completion of the engineering
and manufacturing development phase. As a result, the Army had obligated
about $9.7 million in research, development, test, and evaluation funds for the
program from its inception. Also, the Army planned to obligate another $6.3
million to complete the development effort in FY 2001 through FY 2003 for a
program that the Army did not intend to fund for production. The Army agreed
to discontinue the expenditure of funds against the program.

17. Air Force Audit Agency Report No. 01064010, “Memorandum Report,
Airborne Laser Test Program Direct Labor Hour Charges,” November 21,
2000. During FY 1999 and FY 2000, a correlation existed between direct labor
hours charged and test activity conducted for the Airborne Laser Advanced
Concepts Testbed program. However, for the 4-month period that ended in
January 2000, significant increase in labor hours occurred without a
corresponding increase in test activity. Also, personnel maintained limited
documentation to support their work effort during that period. The Air Force
Audit Agency believed that between 400 and 1,100 hours, and the
corresponding funds of $18,000 to $52,000, should be returned to the customer.
The report contained no recommendations because Air Force personnel initiated
a preliminary investigation related to the direct labor charges.

18. Army Audit Agency Report No. AA01-023, “Simulation Based
Acquisition Program, AMC,” November 8, 2000. Materiel developers
needed to improve their planning for the use of modeling and simulation.
A review of 10 systems showed that for 9 systems the responsible Program
Management Office had not fully planned for the use of modeling and
simulation across the life-cycle of the systems. The complexity of developing
models and simulations—along with the time needed to obtain funding,
collaborate with other activities, and verify and validate models and
simulations—resulted in significant lead time requirements, increasing the
importance of planning. However, for several programs, the use of modeling
and simulation was often focused on specific performance and quality issues
rather than to the more systemic and integrated use envisioned by the Simulation
                                   17
Based Acquisition Program. Better planning and more aggressive cutting edge
use of modeling and simulation in system development would allow the Army to
reduce system cost, schedule, and development risk. The Army agreed to
strengthen the regulatory guidance and policy related to planning for and using
modeling and simulation.

19. Air Force Audit Agency Report No. DW001003, “Designated
Acquisition Commander Issues - Common Low Observables Verification
System, Wright-Patterson Air Force Base,” October 11, 2000. Common
Low Oberservables Verification System program personnel worked as an
effective team toward achieving program completion. Also, program personnel
effectively prevented the growth of requirements while ensuring system
performance met user requirements. However, the assessment identified
opportunities that would improve key program documents and better address the
overall evolutionary acquisition strategy. The Air Force took action during the
review to correct the problems identified.

20. GAO Report No. NSIAD-00-197, “Defense Acquisitions: Higher
Priority Needed for Army Operating and Support Cost Reduction Efforts,”
September 29, 2000. For the two developmental systems in the GAO review,
the Comanche helicopter and the Crusader Self-Propelled Howitzer, efforts
were underway to improve system supportability, reliability, and
maintainability. Although those efforts should have had an impact on the
systems’ operating and support costs, the GAO was unable to link any actions or
tradeoffs to specific reductions in operating and support costs. The program
managers for the Comanche and the Crusader focused mostly on meeting
acquisition cost, schedule, and performance requirements. Further, the Army
did not have complete and reliable data on the operating and support costs for
systems that were being replaced. As a result, program managers lack the data
needed to accurately project operating and support costs and to determine
whether they can achieve the DoD goal of reducing new systems’ life-cycle
costs by 20 to 50 percent over those systems they were replacing. DoD
generally agreed with the recommendations and agreed that significant steps
remain to be taken to reduce operating and support costs.

21. GAO Report No. NSIAD-00-204, “Unmanned Aerial Vehicles:
Questionable Basis for Revisions to Shadow 200 Acquisition Strategy,”
September 26, 2000. The Army had a questionable basis for revising its
acquisition strategy to procure four additional Shadow 200 systems in February
2001 before operational testing is conducted. DoD stated that the risk
associated with procuring the additional systems was minimal given the mature
technology used in the programs and the extensive developmental and
operational tempo testing planned before the procurement decision. The Army
did not agree with the recommendation and stated that they should have the
option to procure four more Shadow 200 systems before successfully completing
operational testing.

22. Air Force Audit Agency Report No. 99064023, “C-17 Integrated
Product Team Participation (Phase II),” September 14, 2000. Contract
engineering data requirements were effectively managed. That occurred

                                  18
because engineering data management personnel included appropriate data rights
clauses in all of the C-17 contracts for spares procurement and organic depot
maintenance support. Legislative changes impacted the flexible sustainment
program. Management officials had not fully implemented a single funding
source for flexible sustainment, and the contractor had not implemented
reliability-based logistics processes or a fully functional sustainment data
system. The contractor had not made adequate progress obtaining cost or
pricing data to support materials pricing requirements for the FY 2001 through
FY 2005 Flexible Sustainment contract. The Air Force and DoD acquisition
streamlining initiatives for the extended range acquisition strategy had not
significantly reduced the level of Government involvement or achieved the
anticipated accelerated acquisition schedule. During the audit, C-17 program
personnel satisfactorily addressed the issues discussed in the report.

23. Inspector General, DoD, Report No. D-2000-187, “The Low-Rate
Initial Production Decision for the Joint Biological Point Detection System,”
September 11, 2000. The Joint Program Manager for Biological Defense and
the product manager for Point Detection System implemented an evolutionary
acquisition strategy for developing the Point Detection System and were
working diligently to meet an aggressive schedule for developing and fielding
the Point Detection System. However, Military Department independent test
agencies, in draft operational assessments, concluded that the Block I Point
Detection System was not ready to enter into low-rate initial production as
planned in September 2000. In draft assessments, the independent agencies
concluded that the Point Detection System was not yet operationally effective,
suitable, or survivable and needed design changes. Further, the milestone
decision authority for the planned low-rate initial decision was below the
appropriate organizational level based on program expenditures. DoD initiated
corrective action by raising the milestone decision authority and changing the
acquisition strategy.

24. GAO Report No. NSIAD-00-165, “Defense Acquisitions: Air Force
Operating and Support Cost Reductions Need Higher Priority,”
August 29, 2000. Air Force operating and support costs were growing at about
4 percent per year, even though the total number of aircraft, the number of
hours they are flown, and the number of personnel who fly and maintain them
had been declining for years. Also, while the estimated operating and support
costs of the Joint Primary Aircraft Training System were much lower than the
aircraft it replaced, the costs of the F-22 and the Joint Strike Fighter could be
higher than the aircraft they were expected to replace. The Air Force did not
give operating and support cost management the same high priority it assigns to
other program concerns such as weapon performance during system
development or improved combat capability after fielding. Instead of
establishing an operating and support cost requirement and managing to meet it,
new programs focused on initiatives to improve reliability, supportability, and
maintainability. DoD agreed that significant steps remain to be taken to reduce
operating and support costs.

25. Naval Audit Service Report No. N2000-0040, “Predator Short Range
Assault Weapon: Acquisition Planning and Contractor Merger,” August 29,
2000. The Predator program overstated training requirements and the Marine
Corps had not explored potentially more affordable alternatives to the weapon
                                   19
despite significant cost growth and schedule breaches. The audit determined
that savings to the Predator program resulted from overhead rate reductions.
The audit assessment on the impact of personnel turnover to the Predator
program was somewhat inconclusive. The assessment was inconclusive because
the program office did not provide evidence to support its contention that
adverse effects were due to the turnover and because Lockheed Martin, the
Defense Contract Management Agency, and the Defense Contract Audit Agency
believed that sufficient controls were in place to mitigate the effects of the
turnover. The Navy agreed to establish exit criteria and reduce the training
requirement.

26. GAO Report No. NSIAD-00-178, “Defense Acquisitions: Recent F-22
Production Cost Estimates Exceeded Congressional Limitation,” August 15,
2000. About one-half of the $21 billion in cost reductions identified by the F-22
contractors and program office were not implemented. However, the Air Force
may not be able to achieve expected results from some of the plans because they
were beyond the Air Force’s ability to control. Although the Air Force and its
contractors had procedures that tracked the status of the production cost
reduction plans and the Air Force had reported quarterly to the Under Secretary
of Defense for Acquisition, Technology, and Logistics concerning the total
estimated cost of F-22 production, the reports had not regularly included a
summary of status of production cost reduction plans. Also, both the Office of
Secretary of Defense and Air Force cost estimators projected F-22 production
costs that exceeded the congressional cost limitation of $39.8 billion. The Air
Force stated that once the Quadrennial Defense Review was completed, DoD
would update the annual Selected Acquisition Report and would make
adjustments to quantities, if needed, to conform to the congressional cap.

27. Inspector General, DoD, Report No. D-2000-174, “V-22 Osprey Joint
Advanced Vertical Aircraft,” August 15, 2000. The V-22 would not
successfully complete the key operational test and evaluation objectives required
to be accomplished before a Milestone III full-rate production decision. That
occurred because 22 deficiencies in major operational effectiveness and
suitability requirements had not been corrected and would not be tested in time
for the Milestone III review in December 2000. In addition, adequate funding
was not available to provide logistical support for the existing V-22. Unless the
Program Management Office could demonstrate that those issues were being
effectively addressed, the Milestone Decision Authority could not be reasonably
assured that the V-22 met its operational requirements and would be able to
perform the full range of missions required by the Joint Operational
Requirements Document. The Navy agreed to prepare a detailed plan to
identify how and when the waived operational requirements would be funded,
corrected, and tested before the Milestone Decision III review.

28. Army Audit Agency Report No. AA00-341, “High Level Architecture,”
August 14, 2000. Actions taken by activities for making sure all of the
24 simulations reviewed would be compliant with high-level architecture were
inadequate. At the time of the review, 10 of 24 simulations were not adequately
progressing. For one simulation, Close Combat Tactical Trainer, the Army
would incur an additional $153.2 million in funding if the trainer were retired at

                                    20
the end of FY 2000 as required by current DoD policy. Other simulations
existed of which the Army Model and Simulation Office was not aware and
could not track their progress. For other simulations, activities did not provide
the office with current and useful information for tracking the progress and/or
compliance with high level architecture. The Army took corrective action by
conducting a complete review of the model and simulation resource repository.

29. GAO Report No. NSIAD-00-182, “Defense Acquisitions: Howitzer
Program Experiencing Cost Increases and Schedule Delays,” July 28, 2000.
The program had experienced several schedule delays, and schedules current at
the time of the review may not provide the DoD with sufficient information by
March 2002 to make an informed decision to begin full-rate production. In
addition, cost growth in the program prime development contract had been
significant. Several design changes had been made to the lightweight Howitzer,
however, testing of the modified weapon would be delayed by the late delivery
of the Howitzers to the program. The effect of production by a foreign
contractor on the Marine Corps and the Army’s ability to support the Howitzer
could not be assessed until the contractor determined where production models
would be built. The report made no recommendations.

30. Inspector General, DoD, Report No. D-2000-163, “Ground Control
Approach-2000 Radar System Test Plan and Test Results,” July 20, 2000.
The Air Force test planning for the Ground Control Approach-2000 radar
system was incomplete and needed improvement. As a result, the extent to
which controllers could meet the multiple target requirements with the
Ground Control Approach-2000 radar was unknown. Also, tests of the radar
system showed significant deficiencies in the Airport Surveillance Radar
function. As a result, the October 1998 delivery justification requirement for
the radar system was not met. At the time of the report, the radar system had
passed the Federal Aviation Administration flight check. The Air Force agreed
to additional tests that meet the intent of the recommendation.

31. GAO Report No. NSIAD-00-153, “Missile Defense: Cost Increases Call
for Analysis of How Many New Patriot Missiles to Buy,” June 29, 2000.
Estimated costs of the Patriot program increased from about $3.9 billion in 1994
to about $6.9 billion in March 2000. At the same time, the number of missiles
to be procured decreased from 1,200 to 1,012. Missile development costs
accounted for about $775 million of the increase and procurement costs
accounted for about $2.2 billion. A primary reason for development cost
increase was that the original estimate did not recognize the level of effort and
difficulty associated with developing and producing a hit-to-kill missile
compared with previous missiles. Costs were likely to increase further. The
DoD had begun to implement a number of program changes to control costs,
and other changes were being studied. In addition, a gap existed between the
Army’s stated requirements of 2,200 missiles and the planned missile
procurement of 1,012. DoD concurred with the report and stated that the
current budget process meets the intent of the recommendation.

32. Naval Audit Service Report No. N2000-0027, “Independent Logistics
Assessments Polices,” June 27, 2000. Program Executive Offices and Systems
Commands were not always compliant with the policy requirement to perform
Independent Logistic Assessments. When they were completed they were
                                    21
mostly compliant. The audit determined that the Independent Logistic
Assessment process was not effectively implemented. Program Executive
Offices and System Commands did not perform a significant number of
assessments and did not always disclose results or the basis of logistics
certifications to decision authorities. Procedures to implement the process were
not formalized, validated, or complete. Without timely and quality Independent
Logistics Assessments results and/or knowing the basis of logistics
certifications, decision authorities could not make fully informed decisions.
Ineffective implementation represented a material management control
weakness. The Navy agreed to revise applicable policy documents.

33. Air Force Audit Agency Report No. DD000010, “Selected Aspects of
the Temporary 2 Modification Program Air Force Flight Test Center,
Edwards AFB CA,” June 15, 2000. The Configuration Control board
Chairperson could improve Temporary 2 Modification program demodification
plans. A review of 30 plans indicated that 6 of the plans did not contain
documentation estimating demodification cost and anticipated demodification
date. In addition, nine of the plans had anticipated demodification dates that
were out of date. Those conditions occurred because the Technical Directorate,
Instrumentation Chief, did not periodically review demodification plans. The
Air Force action taken or planned to be taken would correct the problems
identified in the report.

34. Inspector General, DoD, Report No. D-2000-149, “Use of an Open
Systems Approach for Weapon Systems,” June 14, 2000. The Joint Task
Force had worked diligently to implement the open systems approach for DoD
acquisition programs. However, the Joint Task Force needed increased
assistance from the Defense and Component acquisition executives, as well as
program managers, to implement the use of an open systems approach in the
systems acquisition process. Of the 17 major Defense acquisition programs that
gained approval to begin program definition and risk reduction or to enter
engineering and manufacturing development between March 1996 and
July 1999, 14 programs proceeded into the next acquisition phase without
program managers clearly defining open system design objectives or strategy for
achieving the objectives. In addition, detailed documentation reviews for 4 of
the 17 major Defense acquisition program offices showed that 3 of the 4
programs did not document a means for determining the extent of design
openness of systems, subsystems, and components. Also, DoD guidance on
open systems did not require program managers to assess the impact of a given
level of design openness on the long-term viability and affordability of systems.
DoD generally agreed to implement corrective actions.

35. GAO Report No. NSIAD-00-158, “Defense Acquisitions: F/A-18E/F
Aircraft Does Not Meet All Criteria for Multiyear Procurement,” May 26,
2000. Although the F/A-18E/F met its key performance parameters, such as
range and carrier suitability, the operational tester comparisons of the
F/A-18E/F to the existing F/A-18C showed that the F/A-18E/F does not
demonstrate superior operational performance over the existing aircraft.
Deficiencies identified by the operational testers would be costly to correct and
raise questions about whether the Navy should enter into a multiyear

                                    22
procurement contract for full-rate production of the aircraft. The major
deficiency was the aircraft’s weak aerodynamic performance, which reduced the
aircraft’s ability to accelerate, climb and turn, and caused it to have a low top
speed. The F/A-18E/F also had a noise and vibration deficiency that damaged
the air-to-air and some air-to-ground weapons carried by the aircraft. DoD
disagreed with the recommendation and stated that none of the conclusions of
the expert panel that was monitoring the noise and vibration problem suggested
that a wing redesign was necessary and the program met the stability of design
criterion for multiyear procurement.

36. Air Force Audit Agency Report No. DH000015, “Award Fee Contract
Management Electronic Systems Center Hanscom AFB MA,” May 24,
2000. The audit reviewed award fee procedures in the Global Theater Weather
Analysis and Prediction System and the Deliberate and Crisis Action Planning
and Execution Segments programs. The review focused on fixed-price and cost-
reimbursement contracts that contained award fee provisions. Overall, award
fee contracts were effectively managed except for two timeliness issues. The
Air Force took corrective action by directing program managers to certify and
administratively reserve program funds as soon as possible prior to each award
fee period.

37. GAO Report No. NSIAD-00-74, “Joint Strike Fighter Acquisition:
Development Schedule Should be Changed to Reduce Risks,” May 9, 2000.
The Joint Strike Fighter program office implementation of its acquisition
strategy would not ensure that the program would enter the engineering and
manufacturing phase development phase with low technical risk. Aircraft being
produced during the concept demonstration phase were not intended to
demonstrate many of the technologies considered critical for achieving Joint
Strike Fighter program cost and performance requirements. Instead, many of
these technologies, such as avionics, flight systems, manufacturing and
producibility, propulsion, supportability, and weapon delivery system, would be
demonstrated only in laboratory or ground testing environments. DoD did not
agree with the report and said that the report was based on a misinterpretation of
the use of technology readiness levels to determine the readiness of the critical
technologies to enter engineering and manufacturing development.
38. Inspector General, DoD, Report No. D-2000-121, “Hazardous Material
Management for Major Defense Systems,” May 4, 2000. The program
offices for the nine programs reviewed generally planned and provided for
reduction and elimination of hazardous material in their programs. However,
improvement was needed in developing a programmatic environmental, safety,
and health evaluation; estimating the environmental costs for demilitarization,
disposal, and cleanup of the system; processing an analysis of the potential
environmental consequences of developing and deploying the system; and
establishing a hazardous material reutilization and inventory management
program. Generally, the hazardous material management policy was adequate
in that the conditions noted were not policy related but the result of program
offices not fully implementing the policy. The report did not contain
recommendations.



                                    23
39. GAO Report No. NSIAD-00-75, “Defense Acquisitions: Need to Revise
Acquisition Strategy to Reduce Risk for Joint Air-to-Surface Standoff
Missile,” April 26, 2000. The development schedule had lengthened from
56 months to 78 months, and the total program costs have increased from
$1.6 billion to $2.1 billion. In the most recent extension, the Air Force added
10 months to the development schedule and increased estimated program costs
by $90.1 million. The Air Force employed acquisition reform strategies, such
as using technologies already proven in other systems and establishing a cost
goal as an independent requirement. As a result, the current 78-month
development program time frame was substantially less than the historical
average of 118 months for other missile programs. Also, the missile’s
production unit cost was projected to be well under the price limit. However,
the program was still vulnerable to significant cost increases and schedule
delays. DoD generally agreed with the recommendations in the report and
stated that the current acquisition strategy met the GAO objective of closely
linking the production decision to the knowledge points the GAO report
references.

40. GAO Report No. NSAID-00-78, “Unmanned Aerial Vehicles: Progress
of the Global Hawk Advanced Concept Technology Demonstration,”
April 25, 2000. The Global Hawk had made progress in terms of achieving
performance objectives, but had not made progress toward the price goal. The
most recent projection in July 1999 from the contractor was an average unit
flyaway price of $15.3 million in FY 1994 dollars. To date, the Global Hawk
had demonstrated basic flying capabilities but had not yet undergone sufficient
testing to determine whether it could successfully conduct reconnaissance
missions on a regular basis. DoD delayed a formal decision on whether to
acquire Global Hawk until September 2000 after the technology demonstration,
including the user demonstration and assessment, was complete. According to
GAO, the decision to wait was prudent because by September 2000, a number
of important unknowns would be addressed.

41. Air Force Audit Agency Report No. 99064028, “Sensor Fuzed Weapon
Pre-Planned Product Improvement,” April 10, 2000. Management visibility
could have been improved by increasing the level of cost reporting detail,
establishing improved analytical capabilities to assess contractor performance,
and improving the timeliness of earned value data submissions. Improved
contract performance visibility could provide more detailed and timely
identification of cost and schedule impact from technical performance issues and
facilitate earlier implementation of alternative technical approaches, mitigating
actions, recovery plans, and resource reallocations. Program officials initiated
actions during the audit to address the issues and improvement opportunities
identified.

42. Air Force Audit Agency Report No. 97064003, “F-22 Life-Cycle
Planning During Engineering and Manufacturing Development,” April 10,
2000. Environmental management integration program personnel took proactive
measures to identify and eliminate hazardous materials from the F-22 weapon
system design and to incorporate environmental lessons learned from other
major acquisition programs. Program personnel could have more timely

                                   24
updated the programmatic environmental, safety, and health evaluation plan and
accelerated the production environmental assessment. Software development
program officials could improve insight into the contractor’s overall software
development and integration approaches by updating the software development
plan. Program personnel could augment current life-cycle planning by including
system storage and disposal requirements in program planning documentation
and the draft life-cycle cost estimate. Because F-22 personnel initiated
corrective action during the audit to address the issues identified in the report,
the report contained no recommendations.

43. GAO Report No. NSIAD-00-68, “F-22 Aircraft: Development Cost
Goal Achievable If Major Problems Are Avoided,” March 14, 2000. The
Air Force made progress in demonstrating the expected performance of the
F-22. The Air Force continued to estimate that by the end of the development
program, the F-22 would meet or exceed its performance goals. Although the
development program made progress in achieving schedule goals in 1999, some
tests and scheduled activities established in 1997 were delayed because of
continuing problems such as delays in delivery of flight test aircraft and
completion of testing of nonflying ground test aircraft. However, the Air Force
had not extended the August 2003 completion date of the development program
and, therefore, may not be able to complete development flight tests before the
development program was scheduled to end. Further, the schedule of avionics
development appears optimistic. Despite $757 million in potential cost
increases, the F-22 program could still be managed within its cost limitation
because the Air Force and contractors have identified $860 million in potential
cost offsets. DoD agreed with the report.

44. Inspector General, DoD, Report No. D-2000-092, “Acquisition of the
Minuteman III Propulsion Replacement Program,” March 1, 2000.
Overall, the System Program Office successfully developed and readied the
program for low-rate initial production within established cost, schedule, and
performance baselines. However, three conditions warranted additional
management attention before the program entered full-rate production. The
System Program Office did not ensure that analyses of the potential
environmental consequences of developing and deploying the Propulsion
Replacement Program were performed and approved as required. The System
Program Office did not complete its programmatic environmental, safety, and
health evaluation. Also, the System Program Office did not plan to develop a
comprehensive total ownership life-cycle cost estimate for the Propulsion
Replacement Program. Moreover, the System Program Office did not have a
baseline to measure future mandated reductions in program life-cycle costs. The
Air Force agreed to take corrective action by developing a total life-cycle cost
estimate before the full rate production decision.

45. Naval Audit Service Report No. N2000-0015, “Auditor General
Advisory-Program Executive Office Auditor Project,” January 25, 2000.
The primary goal of the Program Executive Office auditor project was to deliver
timely products and services to the Program Executive Office and program
managers that will facilitate effective decisionmaking. The auditors assisted the
various Program Executive Offices with the management functions and financial
and management information systems. The auditors also served as liaison for
external audits, as integrated product team members, followed up on audit
                                    25
findings, and helped the Program Executive Office with various assignments.
The Naval Audit Service assigned full-time auditors to six Program Executive
Offices and two acquisition commands. Because the report only discussed the
accomplishments of the Program Executive Office Auditor project, the report
contained no recommendations.

46. Inspector General, DoD, Report No. D-2000-070, “Evolved Expendable
Launch Vehicle Program Other Transactions,” December 30, 1999. The
Air Force use of other transaction authority for the program was appropriate.
However, the agreements provided limited insight into the financial aspects of
the program. As a result, the Government was unable to monitor program
costs. Also, other transaction reports to congressional and DoD officials did not
fully disclose the costs to the Government for the development effort. The
System Program Office implemented inappropriate protective measures to
safeguard unclassified, competition sensitive, and proprietary contractor
information. Those enhanced protective measures unnecessarily restricted the
access of Government organizations that required access to contractor
information to perform their assigned duties. The System Program Office also
planned to not use onsite Defense Contract Audit Agency auditors. The Air
Force initiated actions to implement the recommendations.

47. GAO Report No. NSIAD-00-28, “Battlefield Automation: Army’s
Restructured Land Warrior Program Needs More Oversight,”
December 15, 1999. The Land Warrior System could not be fielded by
September 2000 because Land Warrior technologies could not be developed in
time. In addition, oversight of the program was not sufficient based on its
projected development costs. At present, Land Warrior would not operate with
a key digitized battlefield system, Force XXI Battle Command Brigade and
Below. Finally, the program had not resolved technical and human factor
problems that may render the system ineffective. DoD partially concurred with
the report and agreed that the prototypes must be fully tested with soldiers in
field environments.

48. Air Force Audit Agency Report No. 98064003, “Airborne Laser
Program Integrated Product Team Participation,” December 8, 1999.
Airborne Laser program officials effectively managed transition from a
technology-oriented effort to a Major Defense Acquisition Program status.
Program personnel proactively embraced streamlined acquisition principles and
implemented integrated product and process development concepts. However,
opportunities existed to further enhance initial planning efforts and streamline
internal management processes and facilitate Year 2000 compliance efforts for
program software and related interfaces. Officials could define a critical path
for basing decisions and formally designate the Air Mobility Command as a
deployment-planning participant. Also, opportunities existed to refine internal
processes and enhance attainment of DoD acquisition streamlining goals.
Specifically, the program could benefit from improved documentation of key
work processes and increased emphasis on paperless acquisition alternatives.
The Air Force initiated corrective action during the audit for the issues
identified.


                                   26
49. Army Audit Agency Report No. AA00-016, “Tank Training Devices for
National Guard Units,” November 1, 1999. The Army needed to decide
which gunnery device will be the primary training device for the National
Guard. The Army found that the upgraded Abrams Full Crew Trainer should
provide training effectiveness that is the same as or superior to that provided by
the upgraded Conduct of Fire Trainer. The Army also concluded that, over a
15-year period, each upgraded Abrams Full Crew Trainer would result in a
significant cost avoidance for each trainer because it would cost about one-half
as much as each upgraded Conduct of Fire Trainer. In addition, the Army
concluded that if the Abrams Full Crew Trainer is successfully upgraded, the
National Guard could phase out all of the M1 Conduct of Fire Trainers not
scheduled for upgrade, resulting in a cost avoidance of about $5.3 million.
Additionally, in response to the Army recommendation, the National Guard
analyzed its quantitative requirement for the Abrams Full Crew Trainer and
reduced that requirement from 262 to 172. The reduction will result in about
$18.7 million in cost avoidance. The Army concurred with the report
recommendations.

50. GAO Report No. NSIAD-00-15, “Defense Acquisitions: Army
Purchased Truck Trailers That Cannot Be Used as Planned,” October 27,
1999. The Army paid a much higher unit price for the trailers because it
awarded a multiyear, 5-year contract that required the Army to fully fund each
year by a specific date or cancel the remaining production years. Also, the
Army decided not to fund the fourth year of the contract and rather than cancel
the contract, the Army restructured the contract, which resulted in higher unit
prices. The GAO also found that most of the 6,700 High Mobility Trailers
purchased are not usable because of a safety problem and not suitable because
they damage the trucks towing them. In addition, the Army will pay an
additional $640 per trailer for required trailer modifications but has not
determined the modification needed to correct the trailer’s brakes. The Army
will also pay $250 per heavy truck for a modification, but has not determined
the required modification for the light truck. Because the Army has not
determined all the required modifications the total unit cost to the Army for the
trailers is unknown. Finally, the GAO found that the Army’s acquisition
strategy underestimated risks. The Army concurred with the recommendation
and agreed that before proceeding with follow-on procurement of the trailer, the
Army would perform testing to demonstrate that the trailer design meets
operational requirements and will not damage the truck towing it.

51. Inspector General, DoD, Report No. 00-022, “Hazardous Material
Management for the Nimitz-Class Nuclear Aircraft Carrier Program,”
October 27, 1999. The program office had not developed a total life-cycle cost
estimate to establish its total ownership cost objective and threshold to include
environmental costs for demilitarization, disposal, and associated cleanup of the
Nimitz-Class carriers at the end of their useful life and for applicable ship
alterations and overhauls. Also, the program office had not developed a
programmatic environmental, safety, and health evaluation that included a
strategy for meeting environmental, safety, and health requirements; identified
demilitarization and disposal requirements; established program environmental
responsibilities; and identified a methodology to track progress throughout the
acquisition life-cycle of the program to include ship alterations and overhauls.
Without the evaluation, the program office cannot ensure that it is aware of the
                                    27
     impact of environmental, safety, and health issues on mission and cost and may
     also be forgoing opportunities to further reduce environmental life-cycle costs
     over the life span of the program. The Navy concurred with the
     recommendations.

     52. Inspector General, DoD, Report No. 00-012, “Hazardous Material
     Management for the F-15 Aircraft Program,” October 15, 1999. The F-15
     System Program Office did not include environmental costs for demilitarization,
     disposal, and associated cleanup of the F-15 aircraft at the end of useful life in
     the F-15 life-cycle cost estimate. As a result, the F-15 System Program Office
     understated the total life-cycle costs and would not be able to accurately report
     the liability for demilitarization, disposal, and environmental cleanup costs when
     DoD guidance for reporting those costs in financial statements becomes
     available. In addition, the F-15 System Program Office did not include program
     environmental responsibilities and a methodology to track and document
     completion of its environmental strategy throughout the system acquisition
     life-cycle in its programmatic environmental, safety, and health evaluation.
     Without an evaluation that includes program environmental strategy, the
     program office cannot ensure that it is aware of the impact of environmental,
     safety, and health issues on mission and cost and may also be forgoing
     opportunities to further reduce environmental life-cycle costs over the life span
     of the F-15 program. The Air Force concurred with the findings and
     recommendations.

Classified Reports
     The Inspector General, DoD, issued six classified reports regarding ACAT I
     through IV acquisition. The reports addressed protection of programs against
     radio frequency weapons.

            •   Inspector General, DoD, Report No. D-2000-152, “Protection of the
                Global Positioning System Against Radio Frequency Weapons (U),”
                June 19, 2000

            •   Inspector General, DoD, Report No. D-2000-135, “Protection of the
                M1A2 Tank 2000 Against Radio Frequency Weapons (U),” May 31,
                2000

            •   Inspector General, DoD, Report No. D-2000-115, “Protection of the
                V-22 Osprey Against Radio Frequency Weapons (U),”
                April 24, 2000

            •   Inspector General, DoD, Report No. D-2000-073, “Protection of the
                Sensor Fuzed Weapon Against Radio Frequency Weapons (U),”
                February 2, 2000

            •   Inspector General, DoD, Report No. D-2000-067, “Protection of the
                Joint Direct Attack Munition Against Radio Frequency Weapons
                (U),” December 27, 1999

                                         28
•   Inspector General, DoD, Report No. D-2000-024, “Protection of the
    Sense and Destroy Armor Submunition Against Radio Frequency
    Weapons (U),” October 28, 1999




                           29
Appendix C. Elements of a Program
            Management Review
   The Inspector General, DoD, implemented a standard approach to performing
   audits of acquisition programs. That approach is known as the Program
   Management Element approach. We identified 44 major elements that can be
   reviewed during a Program Management Element audit. The 44 elements can
   be grouped into 3 major categories—program definition, program structure, and
   program design.

   Program Definition. The purpose of program definition is to translate broadly
   stated mission needs into operational requirements, from which specific
   performance specifications are derived. The following elements are included in
   the program definition category.

          •   Intelligence Support
          •   Requirements Evolution
          •   Analysis of Alternatives
          •   Affordability
          •   Supportability

   Program Structure. Program structure identifies management elements
   necessary to structure a sound, successful program. The elements address what
   the program will achieve, how the program will be developed and/or procured,
   how the program will be evaluated against what was intended, and what
   resources will be needed for the program. The following elements are included
   in the program structure category.

          •   Program Goals
          •   Acquisition Strategy
          •   Commercial and Developmental Items
          •   Risk Management
          •   Contracting
          •   Contract Management
          •   Joint and Reciprocal Programs
          •   Life-Cycle Support
          •   Life-Cycle Resource Estimates
          •   Warranties
          •   Test and Evaluation




                                         30
Program Design. The purpose of program design is to establish the basis for a
comprehensive, structured, integrated, and disciplined approach to the life-cycle
design of major weapons. The following elements are included in the program
design category.

       •   Integrated Product and Process Development
       •   Systems Engineering
       •   Manufacturing and Production
       •   Quality
       •   Acquisition Logistics
       •   Life-Cycle Cost
       •   Integrated Logistics Support
       •   Maintenance Plan and Implementation
       •   Deployment
       •   Environmental, Safety and Health
       •   Hazardous Materials
       •   Demilitarization and Disposal
       •   Pollution Prevention
       •   Open System Design
       •   Software Engineering
       •   Year 2000 Issue
       •   Reliability, Availability, and Maintenance
       •   Human Systems Integration
       •   Interoperability
       •   Survivability
       •   Work Breakdown System
       •   Contractor Performance
       •   Standardization Documentation
       •   Metric System
       •   Program Protection
       •   Electromagnetic Environmental Effects
       •   Program Management
       •   Implementing Acquisition Reform




                                   31
         Appendix D. ACAT I Programs Reviewed
                                                       Program                  Program                   Program                Other
                                                       Definition               Structure                  Design                Areas
     Acquisition Program           Report No.1         Elements                 Elements                  Elements              Reviewed
Abrams Tank Upgrade             D-2000-135 (C)                                                                                Radio
                                                                                                                              Frequency
                                                                                                                              Weapons
Advanced Extremely High         D-2001-032 (12)                          Program Goals
 Frequency Program

AIM-9X Air-to-Air Missile       D-2000-149 (34)                                                    Open Systems
 Upgrade

Airborne Laser                  D-2000-149 (34)                                                    Open Systems

                                01064010 (17)                            Contract Management
                                98064003 (48)       Affordability        Program Goals             1) Environmental,          Integrated
                                                                                                         Safety, and Health   Product Team
                                                                                                   2) Program Management      Participation

Amphibious Assault Ship         N2001-0018 (4)                                                     Life-cycle Cost
Army Tactical Missile Program   GAO-01-74 (14)      1) Affordability
 Brilliant Antiarmor                                2) Requirements
                                GAO-01-288 (6)      Requirements
B-1 Mission Upgrade             D-2000-149 (34)                                                    Open Systems

Black Hawk Helicopter           D-2000-121 (38)                                                    Hazardous Materials
                                AA01-023 (18)                            Test and Evaluation

C-17A Advanced Cargo Aircraft   99064023 (22)       Affordability        1) Acquisition Strategy   Systems Engineering        Integrated
                                                                         2) Contract Management                               Product Team
                                                                                                                              Participation

CH-60S Utility Helicopter       D-2000-149 (34)                                                    Open Systems
Comanche Helicopter             D-2000-121 (38)                                                    Hazardous Materials
                                NSIAD-00-197 (20)                                                  Life-Cycle Cost
                                GAO-01-288 (6)      Requirements
Crusader Artillery System       NSIAD-00-197 (20)                                                  Life-Cycle Cost
                                GAO-01-288 (6)      Requirements
DD-21 Destroyer Program         N2000-0027 (32)                                                    Acquisition Logistics
                                N2001-0018 (4)                                                     Life-Cycle Cost
DDG-51 Guided Missile           N2001-0018 (4)                                                     Life-Cycle Cost
 Destroyer

Global Broadcast Service        D-2000-149 (34)                                                    Open Systems


         1
             Number in parentheses indicates location of report in Appendix B and a (C) indicates report is
             classified.

                                                                    32
                                                  Program                Program                       Program                 Other
                                                  Definition             Structure                      Design                 Areas
   Acquisition Program         Report No.         Elements               Elements                      Elements               Reviewed
Global Positioning System   D-2000-152 (C)                                                                               Radio Frequency
                                                                                                                         Weapons

Ground Control Approach     D-2000-163 (30)                        Test and Evaluation
 2000 Radar System

Evolved Expendable          D-2000-070 (46)                                                                              Other Transactions
 Launch Vehicle

F/A-18E/F Naval Strike      NSIAD-00-158 (35)   Affordability      Test and Evaluation
 Fighter

F-22 Aircraft               97064003 (42)                          Life-Cycle Resource       Hazardous Materials         Integrated Product
                                                                    Estimates                                            Team Participation

                            NSIAD-00-68 (43)    Affordability      Test and Evaluation
                            NSIAD-00-165 (24)                                                Life-Cycle Cost
                            NSAID-00-178 (26)   Affordability
                            GAO-01-310 (5)      Affordability      1) Program Goals          1) Contractor Performance
                                                                   2) Test and Evaluation    2) Manufacturing and
                                                                                                  Production

Family of Medium Tactical   AA01-023 (18)                           Test and Evaluation
 Vehicles
Improved Cargo Helicopter   D-2000-149 (34)                                                  Open Systems
Joint Air-to-Surface        D-2000-149 (34)                                                  Open Systems
 Standoff Missile
                            NSIAD-00-75 (39)    Affordability       Acquisition Strategy

Joint Direct Attack         D-2000-067 (C)                                                                               Radio Frequency
 Munition                                                                                                                Weapons
Joint Primary Aircraft      NSIAD-00-165 (24)                                                Life-Cycle Cost
 Trainer
Joint Simulation System     D-2001-089 (2)                                                                               Management
                                                                                                                         concerns relating to
                                                                                                                         program office

Joint Strike Fighter        D-2000-149 (34)                                                  Open Systems

                            NSIAD-00-74 (37)    1) Affordability   1) Acquisition Strategy
                                                2) Requirements    2) Test and Evaluation
                            NSIAD-00-165 (24)                                                Life-Cycle Cost
Longbow Apache Helicopter   AA01-023 (18)                          Test and Evaluation
Multi-Functional            D-2001-032 (12)                        Program Goals
Information
  S      L    V l
                            N2001-0018 (4)                                                   Life-Cycle Cost
Minuteman III Guidance      D-2000-121 (38)                                                  Hazardous Materials
 Replacement Program




                                                                   33
                                                        Program                Program                   Program                Other
                                                        Definition             Structure                  Design                Areas
     Acquisition Program            Report No.          Elements               Elements                  Elements              Reviewed
Minuteman III Propulsion         D-2000-092 (44)     Requirements        1) Acquisition           1) Acquisition Logistics
 Replacement Program                                                         Strategy             2) Earned Value
                                                                         2) Contract                   Management
                                                                              Management          3) Environmental,
                                                                         3) Risk Management           Safety and Health
                                                                         4) Test and Evaluation   4) Hazardous Materials
                                                                                                  5) Life-Cycle Cost

                                 D-2000-121 (38)                                                  Hazardous Materials
Multiple Launch Rocket System    D-2000-149 (34)                                                  Open Systems

                                 D-2001-032 (12)                         Program Goals
National Air Space System        D-2001-032 (12)                         Program Goals

National Missile Defense         D-2000-149 (34)                                                  Open Systems

National Polar Orbiting          D-2000-149 (34)                                                  Open Systems
 Operational Environment
 Satellite System

Navy Area Theater Ballistic      D-2000-149 (34)                                                  Open Systems
 Missile Defense
Navy Extremely High Frequency    N2001-0018 (4)                                                   Life-Cycle Cost
 Satellite Communications
 Program

Navy Theater Ballistic Missile   D-2000-149 (34)                                                  Open Systems
 Defense
Nimitz-Class Nuclear Aircraft    00-022 (51)                                                      Hazardous Materials
 Carriers
                                 D-2000-121 (38)                                                  Hazardous Materials
                                 N2001-0018 (4)                                                   Life-Cycle Cost
Patriot PAC-3                    NSIAD-00-153 (31)   1) Affordability
                                                     2) Requirements

Seawolf Combat Systems           N2001-0018 (4)                                                   Life-Cycle Cost
Sense and Destroy Armor          D-2000-024 (C)                                                                              Radio
 Submunition                                                                                                                 Frequency
                                                                                                                             Weapons
Space Based Infrared             D-2000-149 (34)                                                  Open Systems
 System-High
Spaced Based Infrared            D-2000-149 (34)                                                  Open Systems
 System-Low

                                 GAO-01-6 (7)        Analysis of         Program Goals
                                                     Alternatives




                                                                    34
                                                   Program            Program                   Program                Other
                                                   Definition         Structure                  Design                Areas
     Acquisition Program          Report No.       Elements           Elements                  Elements              Reviewed
Surface to Air Missiles        N2001-0018 (4)                                            Life-Cycle Cost
  (Block III/IIIA)

Surface to Air Missiles        N2001-0018 (4)                                            Life-Cycle Cost
 (Block IV)
T-45 Undergraduate Jet Pilot   D-2000-121 (38)                                           Hazardous Materials
 Training System
Tactical Tomahawk              D-2000-149 (34)                                           Open Systems
U.S. Marine Corps Helicopter   D-2000-149 (34)                                           Open Systems
 Upgrades

                               N2001-0018 (4)                                            Life-Cycle Cost

V-22 Osprey Joint Advanced     D-2000-174 (27)   Requirements   1) Acquisition           1) Acquisition Logistics   Integrated
 Tactical Aircraft                                                  Strategy             2) Manufacturing and       Product
                                                                2) Test and Evaluation       Production             Teams
                                                                3) Risk Management       3) Life-Cycle Cost

                               D-2000-115 (C)                                                                       Radio
                                                                                                                    Frequency
                                                                                                                    Weapons

                               N2001-0018 (4)                                            Life-Cycle Cost
                               GAO-01-369R (9)                  Test and Evaluation
Virginia-Class Submarine       D2001-032 (12)                   Program Goals
                               N2001-0018 (4)                                            Life-Cycle Cost




                                                           35
            Appendix E. ACAT II Programs Reviewed
                                                              Program              Program                    Program           Other
                                                              Definition           Structure                   Design           Areas
       Acquisition Program          Report No.2               Elements             Elements                   Elements         Reviewed
Advanced Integrated Electronic      N2001-0018 (4)                                                     Life-Cycle Cost
 Warfare System
Advanced Mission Computer and       N2000-0027 (32)                                                    Acquisition Logistics
 Displays
                                    N2001-0018 (4)                                                     Life-Cycle Cost

All Source Analysis System          D-2001-032 (12)                          Program Goals             -

AN/ALQ-165 and AN/ALQ-214           D-2001-086 (3)      Requirements         Test and Evaluation
 On-Board Jammers
                                    GAO-01-288 (6)      Requirements
Battlefield Combat Identification   D-2001-093 (1)      Requirements         1) Acquisition Strategy
 System                                                                      2) Test and Evaluation
C/KC-135 Stratotank Aircraft        D-2000-121 (38)                                                    Hazardous Materials

Consolidated Automated Support      N2001-0018 (4)                                                     Life-Cycle Cost
 System
Extended Range Guided Munitions     D-2001-032 (12)                          Program Goals
F-15 Aircraft                       00-012 (52)                                                        Hazardous Materials
                                    D-2000-121 (38)                                                    Hazardous Materials
Grizzly Mine Clearing System        D-2000-121 (38)                                                    Hazardous Materials
                                    AA01-023 (18)                            Test and Evaluation
Joint Tactical Combat Training      N2001-018 (4)                                                      Life-Cycle Cost
 System
Land Warrior Program                NSIAD-00-28 (47)                         1) Acquisition Strategy   1) Interopilibility
                                                                             2) Program Goals          2) Program Management
                                                                             3) Test and Evaluation

Lightweight 155mm Towed             N2001-0018 (4)                                                     Life-Cycle Cost
 Howitzer
                                    NSIAD-00-182 (29)   Affordability        Test and Evaluation
P-3 Improvement Program             N2001-0018 (4)                                                     Life-Cycle Cost
P-3 Sustained Readiness Program     N2001-0018 (4)                                                     Life-Cycle Cost
Remote Minehunting System           N2001-0018 (4)                                                     Life-Cycle Cost

Rolling Airframe Missile Block I    N2000-0027 (32)                                                    Acquisition Logistics




            2
                Number in parentheses indicates location of report in Appendix B and a (C) indicated report is
                classified.

                                                                        36
                                                  Program               Program     Program     Other
                                                  Definition            Structure    Design     Areas
      Acquisition Program     Report No.          Elements              Elements    Elements   Reviewed
Sensor Fuzed Weapon         99064028 (41)     Affordability        Program Goals
                            D-2000-073 (C)                                                     Radio
                                                                                               Frequency
                                                                                               Weapons
Wide Area Munitions         D-2001-032 (12)                        Program Goals
Wind Corrected Munitions    D-2001-032 (12)                        Program Goals
 Dispenser




                                                              37
           Appendix F. ACAT III Programs Reviewed
                                                         Program                Program                    Program                 Other
                                                         Definition             Structure                   Design             Areas Reviewed
       Acquisition Program             Report No.3       Elements               Elements                   Elements
Advanced Tank Armament System       D-2001-066 (8)     Requirements       1) Acquisition Strategy
                                                                          2) Test and Evaluation

Agile Ground Laser Eye              N2001-0018 (4)                                                  Life-Cycle Cost
 Protection System
Armored Medical Evacuation          D-2001-012 (16)    Requirements       1) Acquisition Strategy
 Vehicle                                                                  2) Test and Evaluation
Combat Survivor Evader Locator      D-2001-036 (11)    1) Affordability   Test and Evaluation       1) Acquisition Logistics
                                                       2) Requirements                              2) Hazardous Materials
                                                                                                    3) Interoperability

Common Low Observable               DW001003 (19)                                                                              Effectiveness of
 Verification System                                                                                                           selected
                                                                                                                               acquisition and
                                                                                                                               financial
                                                                                                                               management
                                                                                                                               strategies

Countermeasures Detection and       N2001-0018 (4)                                                  Life-Cycle Cost
 Control Set
Deliberate & Crisis Action          DH000015 (36)                         Contract Management
 Planning & Execution System
Expeditionary Integrated Combat     N2001-0018 (4)                                                  Life-Cycle Cost
 OPS Center
F-14B Upgrade                       N2001-0018 (4)                                                  Life-Cycle Cost
Global Theater Weather Analysis     DH000015 (36)                         Contract Management
 & Prediction System
Joint Biological Point Detection    D-2000-187 (23)    Affordability      Test and Evaluation
  System
Heavy Expanded Mobility Tactical    AA01-023 (18)                         Test and Evaluation
 Truck
High Mobility Multi-Purpose         AA01-023 (18)                         Test and Evaluation
Wheeled Vehicle
High Mobility Trailers              NSAID-00-15 (50)   Affordability      1) Acquisition Strategy
                                                                          2) Test and Evaluation
M113 Family of Vehicles             AA01-023 (18)                         Test and Evaluation
M9 Armored Combat Earth Mover       AA01-023 (18)                         Test and Evaluation




           3
               Number in parentheses indicates location of report in Appendix B.



                                                                  38
                                                      Program                Program                    Program              Other
                                                      Definition             Structure                   Design          Areas Reviewed
       Acquisition Program         Report No.         Elements               Elements                   Elements
Naval Fire Control System       N2000-0027 (32)                                                  Acquisition Logistics

OE 538/BRC Multifunction Mast   N2000-0027 (32)                                                  Acquisition Logistics
 Antenna
Officer Tactical Command Info   N2001-0018 (4)                                                   Life-Cycle Cost
 Exchange Subsystem/Tactical
 Data Info Exchange Subsystem

Predator Short Range Assault    AA01-023 (18)                          Test & Evaluation
 Weapon

                                N2000-0040 (25)     1) Analysis of     1) Acquisition Strategy
                                                        Alternatives   2) Program Goals
                                                    2) Requirements
                                N2001-0018 (4)                                                   Life-Cycle Cost

Shadow 200 Unmanned Aerial      NSIAD-00-204 (21)   1) Affordability   Acquisition Strategy
 Vehicle                                            2) Requirements
                                GAO-01-288 (6)      Requirements

SLBM Retargeting System         N2001-0018 (4)                                                   Life-Cycle Cost

Tactical Tomahawk Weapon        N2001-0018 (4)                                                   Life-Cycle Cost
 Control System
TB-29 Towed Array               N2000-0027 (32)                                                  Acquisition Logistics
                                N2001-0018 (4)                                                   Life-Cycle Cost




                                                               39
            Appendix G. ACAT IV Programs Reviewed
                                                           Program                  Program            Program           Other
                                                           Definition               Structure           Design           Areas
        Acquisition Program            Report No.4         Elements                 Elements           Elements         Reviewed
Acoustic Firing System               N2001-0018 (4)                                             Life-Cycle Cost
Advanced Radiographic System         N2000-0027 (32)                                            Acquisition Logistics
Advanced Tactical Air C2             N2001-0018 (4)                                             Life-Cycle Cost
AQM-37C Supersonic Target            N2001-0018 (4)                                             Life-Cycle Cost

Close Quarters Battle Weapon         N2001-0018 (4)                                             Life-Cycle Cost

Combat Shotgun                       N2001-0018 (4)                                             Life-Cycle Cost

Composite Pumps                      N2001-0018 (4)                                             Life-Cycle Cost

CVC Helmet Intercomm                 N2001-0018 (4)                                             Life-Cycle Cost
Digital Interrogator                 N2001-0018 (4)                                             Life-Cycle Cost
EC Shallow Water Undersea Warfare    N2001-0018 (4)                                             Life-Cycle Cost
 Training Range Program

Enhanced Naval Wargaming System      N2001-0018 (4)                                             Life-Cycle Cost
Improved BIVY Sack                   N2001-0018 (4)                                             Life-Cycle Cost

Improved Direct Air Support Center   N2001-0018 (4)                                             Life-Cycle Cost
  Product Improvement
Improved Frensel Lens Optical        N2001-0018 (4)                                             Life-Cycle Cost
 Landing System
Improved Trigger Finger Mitten       N2001-0018 (4)                                             Life-Cycle Cost

Infantry Combat Boot                 N2001-0018 (4)                                             Life-Cycle Cost
Launched Expendable Acoustic         N2000-0027 (32)                                            Acquisition Logistics
 Device
Legacy Automated Test Equipment      N2001-0018 (4)                                             Life-Cycle Cost
 Offload to the Consolidated
 Automated Support System Program

Marine Heavy Equipment Transporter   N2001-0018 (4)                                             Life-Cycle Cost
 Capability
Maintenance Cellular Information     N2001-0018 (4)                                             Life-Cycle Cost
 Exchange System
Medium Machine Gun Tripod            N2001-0018 (4)                                             Life-Cycle Cost
Modular Sleeping Bag                 N2001-0018 (4)                                             Life-Cycle Cost
Multi Purpose Cart                   N2001-0018 (4)                                             Life-Cycle Cost
Powered Multi Fuel Burner            N2001-0018 (4)                                             Life-Cycle Cost




            4
                Number in parentheses indicates location of report in Appendix B.

                                                                 40
                                                        Program      Program            Program           Other
                                                        Definition   Structure           Design           Areas
        Acquisition Program             Report No.      Elements     Elements           Elements         Reviewed
Remote Sensing Chemical Agent         N2001-0018 (4)                             Life-Cycle Cost
 Alarm

Shipboard Firefighting Truck          N2001-0018 (4)                             Life-Cycle Cost
Ski March Boot                        N2001-0018 (4)                             Life-Cycle Cost
Special Operation Forces Laser        N2001-0018 (4)                             Life-Cycle Cost
 Marker

Sub Rescue Diving and Recompression   N2000-0027 (32)                            Acquisition Logistics
 System
Supersonic Sea Targeting Threat       N2001-0018 (4)                             Life-Cycle Cost

Tactical Combat Operations            N2001-0018 (4)                             Life-Cycle Cost

Technical Surveillance                N2001-0018 (4)                             Life-Cycle Cost
 Countermeasures

UH-3H                                 N2001-0018 (4)                             Life-Cycle Cost
VTC Information Exchange System       N2001-0018 (4)                             Life-Cycle Cost




                                                              41
     Appendix H. Matrix of Systemic Weaknesses
                                                                                                             Total
                                                        Hazardous                                          Ownership/
               Acquisition   Affordability/   Program    Material     Open                     Test and    Life-Cycle
Report No.      Strategy         Cost          Goals    Management   Systems   Requirements   Evaluation      Cost

GAO
GAO-01-310                         X            X                                                 X
GAO-01-288                                                                           X
GAO-01-6                                        X
GAO-01-369R                                                                                       X
GAO-01-228R                        X
GAO-01-74                          X                                                 X
NSIAD-00-197                                                                                                   X
NSIAD-00-165                                                                                                   X
NSIAD-00-204       X
NSIAD-00-178                       X
NSIAD-00-182                       X
NSIAD-00-153                       X                                                 X
NSIAD-00-158                       X
NSIAD-00-74        X
NSIAD-00-75        X
NSAID-00-78                        X
NSIAD-00-68                        X
NSAID-00-28                                     X
NSAID-00-15        X               X

IG, DoD
D-2001-093         X                                                                              X
D-2001-089
D-2001-086                                                                                        X
D-2001-066         X
D-2001-036
D-2001-032                                      X
D-2001-012         X
D-2000-187
D-2000-174                                                                                        X
D-2000-163                                                                                        X
D-2000-149                                                             X
D-2000-121                                                  X
D-2000-092                                                  X                                                  X
D-2000-070
D-2000-022                                                  X
D-2000-012                                                  X




                                                          42
                                                                                                               Total
                                                         Hazardous                                          Ownership
                Acquisition   Affordability/   Program    Material     Open                     Test and    /Life-Cycle
Report No.       Strategy         Cost          Goals    Management   Systems   Requirements   Evaluation      Cost
   Army
Audit Agency
AA01-128                                                                             X
AA01-087            X                                                                X
AA01-023                                                                                           X
AA00-341
AA00-016
    Naval
Audit Service
N2001-0018                                                                                                      X
N2000-0040                                       X
N2000-0027
N2000-0015
  Air Force
 Audit Agency
01064010                                                                                           X

DW001003            X
99064023
DD000010                                                                                           X
DH000015
99064028
97064003                                                       X                                                X
98064003




                                                          43
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency




                                         44
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Acquisition and Technology, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                       45
Evaluation Team Members
The Audit Policy and Oversight Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector,
General DoD, who contributed to the report are listed below.

Patricia A. Brannin
Wayne C. Berry
Martin T. Heacock
Robert L. Kienitz
James D. Madden
Krista S. Gordon
